                                  Closeout for M99090048

On septe&ber 30, 1999, an Executive Officer' and a Program Office? brought us copies of
correspondence written by a reviewe8 which contained allegations of misconduct in science.
The reviewer alleged that a PI4made false statements in a proposal5 to NSF and also that the
PI committed plagiarism from a Ph.D. dissertation6into a papeJ published in 1999.

The reviewer asserted that the opening statement in the PI'S proposal was false. The
statement declares a new phenomenon which the PI claims to have discovered. In the
reviewer's opinion, the statement is false because he thinks the phenomenon was discovered
first in his own research program. The reviewer also disclosed his belief that this discovery
was made independently by the PI. As this matter is essentially a priority dispute, further
inquiry is not warranted.

In a letter to us, the reviewer described six observations and ideas that he believes were
plagiarized from the dissertation into the PI'S 1999 paper. The reviewer provided the PI
with a copy of the dissertation in August 1998. All six of the allegedly plagiarized
observations and ideas appeared in a 1998 paper8 written by the PI and submitted in May
1998. The 1998 paper was referenced by the PI in his 1999 paper. As the 1998 paper was
submitted by the PI prior to receiving the dissertation from the reviewer, we concluded that
the six observations and ideas were not plagiarized from the dissertation provided by the
reviewer.

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




4
5   Footnotes Redacted




                                          Page 1 of 1
